HHS/OIG-Audit-"Audit of the Ryan White Comprehensive AIDS Resources EmergencyAct of 1990, Title II Admiistered
by the State of Connecticut"(A-01-96-01501)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Ryan White Comprehensive AIDS Resources Emergency Act of 1990, Title II Administered by the State
of Connecticut" (A-01-96-01501)
September 27, 1996
Complete
Text of Report is available in PDF format (523 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State of Connecticut (State) should improve its management system to ensure that (1) reliable information is used
in reporting that the State maintains its required level-of-effort for HIV- related activities, and (2) Ryan White Comprehensive
AIDS Resources Emergency Act of 1990, Title II (CARE Act) funds are used as the payor of last resort.
Reporting State HIV-Related Activities: Level-of-Effort
Annually, the Governor provided the required assurances that the State will maintain its required level-of-effort for
HIV-related activities. The Department of Public Health (DPH), however, could not support the Governor's assurances that
the State would maintain its required level-of-effort for HIV-related activities. In this respect, DPH's reports of State
funded HIV-related expenditures were not based on reliable information. This occurred because DPH did not provide State
departments with guidance nor did DPH review and verify submitted data. As such, DPH has no assurance that the State has
or will maintain HIV-related activities at the required level.
Care Act Funds as Payor of Last Resort
Contrary to Federal requirements, DPH utilized CARE Act funds to pay for items or services when other funds were available.
For the five years ended June 30, 1995, DPH used CARE Act funds to pay $995,000 for drug assistance (Connecticut AIDS Drug
Assistance Program) when State funds were available. Further, data provided by the Connecticut Department of Correction
(DoC) indicates a significant portion of another $635,000 (fiscal years 1995 and 1996 only) was used for case management
services provided to inmates who were the responsibility of DoC or the parole board. This occurred because the DPH did
not: (1) provide specific guidance to State departments specifying that the departments are required to use available State
funds before using CARE Act funds, (2) monitor the implementation of the payor of last resort requirement, and (3) establish
a mechanism whereby the State pays for the services provided to inmates who remain under the custody of the DoC or the
parole board.
By utilizing CARE Act funds when other funding is available, the DPH is not maximizing the possible services available
to individuals with HIV. The DPH could have possibly provided additional HIV-related services to meet gaps in services
identified by local or statewide HIV CARE Consortium.